U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Trump v. District of Columbia, No. 20-331
Dear Mr. Harris:
Respondents’ brief in opposition in the above-captioned case is scheduled to be filed on or
before December 14, 2020. Pursuant to Supreme Court Rule 15.5, petitioner expressly waives the
14-day waiting period for distribution of this case to the Court. We respectfully request that the
Court distribute this case on its next distribution date for paid cases, which we understand is
December 23, 2020, so that the petition may be considered at the January 8, 2021 conference.
Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0331
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES
DISTRICT OF COLUMBIA, ET AL.

LOREN LINN ALIKHAN
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL FOR
THE DISTRICT OF COLUMBIA
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW, SUITE 8100
WASHINGTON, DC 20010
202-727-6287
LOREN.ALIKHAN@DC.GOV
LAURA C. BECKERMAN
CITIZENS FOR RESPONSIBILITY & ETHICS IN
WASHINGTON
1101 K STREET NW
SUITE 201
WASHINGTON, DC 20005
202-408-5565
LBECKERMAN@CITIZENSFORETHICS.ORG
BRIAN E. FROSH
ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL OF
MARYLAND
CONSUMER PROTECTION DIVISION
200 ST. PAUL PLACE
BALTIMORE, MD 21202
BFROSH@OAG.STATE.MD.US

DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L STREET, NW
SUITE 312
WASHINGTON, DC 20036
202-888-1741
DEEPAK@GUPTAWESSIER.COM
JOSHUA ADAM MATZ
KAPLAN HECKER & FINK LLP
350 5TH AVENUE
SUITE 7110
NEW YORK, NY 10118
929-294-2537
JMATZ@KAPLANHECKER.COM
ROBERT W. RAY
ZEICHNER ELLMAN & KRAUSE LLP
1211 AVENUE OF THE AMERICAS,
40TH FL.
NEW YORK, NY 10036
212-826-5321
RRAY@ZEKLAW.COM
JOSEPH M. SELLERS
COHEN MILSTEIN SELLERS & TOLL PLLC
1100 NEW YORK AVE., N.W.
SUITE 500, WEST TOWER
WASHINGTON, DC 20005
202-408-4600
JSELLERS@COHENMILSTEIN.COM
CHRISTINE ELIZABETH WEBBER
WEST TOWER
1100 NEW YORK AVENUE
SUITE 500
WASHINGTON, DC 20005-0000
202-408-4600

